/

y

Zo
SUPREME COURT CASE No.
SUPREME COURT OF THE UNITED STATES
FOR NINTH CIRCUIT COURT OF APPEALS
CASE NO. 19-55351
PEOPLE OF THE UNTED STATES
AND DELANEY SMITH PHARM.D.,M.D.
CIVIL SURGEON FOR THE UNITED STATES
DEPARTMENT OF DEFENSE
PETITIONER / PLAINTIFFS
V.

FILED
JUN 1 5 2020
SUPREMEFCOUR(fLu SK

LOS ANGELES COUNTY MTA
DEFENDANT, AND
NINTH CIRCUIT COURT OF APPEALS
RESPONDANT,
PETITION FOR WRIT OF CERTIORARI
[FILED PURSUANT TO FRCP 60(b)(4)]
DELANEY SMITH PHARM.D.,M.D.
P.O. BOX 78159
LOS ANGELES, CALIFORNIA 90016
JENNIFER GYSLER ESQ.
MONROY, AVEBUCK AND GYSLER
32123 LINDERO CANYON ROAD SUITE #310
WESTLAKE VILLAGE CA 91361 (818) 889-0661

RECEIVED
JUL 2 h 2020

QUESTIONS PRESENTED
1.

Whether Ninth Circuit Court of Appeals
forfeited subject matter jurisdiction to make
rulings when Court failed and then refused to
file Notice of Appeal served on district court
on 1/4/19 in response to 12/11/18 district
court’s ruling because if filed the NOA had
raised the issue of “contradictory rulings
within the same Appellate Court thereby
pursuant to Rutters Appellate Court
Procedure automatically invoke the “en banc
panel which then refused to rule in the
absence of a NOA on Appellate court docket?

2.

Plaintiff is a Federal Plaintiff who was
denied a hearing for purpose of entering
default against removing parties in both
state and federal courts after case was
remanded pursuant to 28 USC sec 1447(c),
but federal order to remand never filed at
state court because it was hidden from
default window clerks by Los Angeles County
defendants who also served as Court Counsel
for Los Angeles Superior Court with free
access to court records?

3.

Whether federal court district court judge’s
ruling on 12/11/18 was rendered “null and
void” because he lacked any arguable basis
for subject matter jurisdiction to deny federal
plaintiff s 5th Amendment Constitutional
l.

4.

right to “due process” to file a related federal
court actions with federal claims in federal
court [including but not limited to a [60(b)(4)
motion for relief from “void rulings”?]

5.

Whether pursuant to Federal Civil Rights sec
1983 petitioner’s right to “due process” had
been violated in underlying Los Angeles
County MTA workers compensation fraud
case when Los Angeles county counsel
removed the case to federal court in violation
28 USC sec 1445(c), but federal judge ignored
timely filed order to remand for lack of
subject matter jurisdiction filed on 6/30/00
and thereafter substituted federal laws for
state court administrative regulations [ie 8
CCR sec 9792.5, 10490 (which prohibits filing
demurrers and requires a trial), but denied
plaintiff a trial because according to the
federal court mediator [a federal court judge]
“she said she does not like niggers and has no
intention of allowing this case to go to trial if
not settled in mediation conference”?

6.

Whether Federal Civil Rights Continuing
Acts Doctrine was violated in 2016 when in
response to 60(b)(4) Motion for Relief From
Void rulings a federal court judge validated
the removal of workers compensation fraud
case to federal court; denial of right to trial
by judge Manella because of petitioner’s race;
li.

£

and in the absence of subject matter jurisdiction
over person [primary treating physician pursuant
to labor code section 4061.5], and absence of trial
with Q.M.E, A.M.E. rebuttal of treating
physician’s opinion offered to award sanctions by
declaring primary treating physician in a workers
compensation fraud case was a “vexatious
litigant”; while ignoring WCAB judge’s ruling
that laches had no application to this plaintiff
[Joyce Chapman v. Los Angeles County MTA; and
administrative director’s rulings against co­
defendant Cambridge Integrated Services that
defendant should have paid penalty [10%] and
interest when uncontested medical bills are not
paid within 60 days of receipt.

m.

*

PARTIES TO THE PROCEEDINGS

PEOPLE OF THE UNITED STATES OF AMERICA
AND DELANEY SMITH PHARM.D.,M.D.
CIVIL SURGEON FOR UNITED STATES
AND PRIMARY TREATING PHYSICIAN
PETITIONERS,
v.
COUNTY OF LOS ANGELES,
ANGELA NOSSETT M.D.
COUNTY OF LOS ANGELES COUNSEL
MARY REYNA ESQ.
RAYMOND FORTNER ESQ.
AND DOES 1-100
DEFENDANTS,
NINTH CIRCUIT COURT CHIEF THOMAS
RESPONDENT,

IV.

f

TABLE OF CONTENTS
PAGE
Questions Presented

inn

Parties to Proceedings

IV

Table of Contents

v

Table of Authorities

vi - IX

Opinions Entered in the Case

1.

Statement of Jurisdiction

2

Statement of the Case

3 -40

Reasons For Granting Writ

41-45

Appendix

p. la -10a

v.

*

TABLE OF AUTHORITIES

FEDERAL STATUTES
18 USC section 1505
18 USC sections 1962
28 SC sec 455(a)(b)(c)
28 USC sec. 1445(c)

FEDERAL REGULATIONS
FRCP (60(b)(4)
49 CFR 1102.2
Federal RICO Violations

State Laws and Regulations
Cal. Code of Civil Procedure sec 1054

Title 8 Cal. Code of Regulations sec 9792.5...

Title 8 Ca. Code of Regulations sec 10490

vi.

California

Labor
4061.5

Insurance

Fraud

Code

sec.

Code

1871.4

section

Cited Cases
Brockman v. Merabank 40 F 3d 103 [No. 93-15505]
(1994) ......................................................................
Colorado River Water Conservation Dist. v. United
States 424 U.S. 800,818,96 S. Ct. 1236, 1246, 47
L.Ed. 483 (1976)............................................................
Joyce Chapman v. Los Angeles County MTA Case
No. MON 206148
WCAB Judge Pamela Foust
(2002)......................
Dees v. Billy 394 F 3d 1290 (9th Cir. 1977)
United States v. Ohio Power Co. 353 U.S. 98 (1957)

Vacanti v. State Comp. Insur. Fund 24 Cal. 4th 827
(2001)......................................................................
Vasquez v. North Transit [292 F 3d 1049 (9th Cir.)
(2002) [Pet. For Writ.....................................

vn.

i

y

Penal Code Violations
Penal Code sections 549,550

4

Vlll

*

c

i/

RELATED UNITED STATES SUPREME COURT
CASES [NO. 17-407, 16-1028, 06-1425,] HEARINGS
ON PETITIONS FOR WRIT OF CERTIORARI
DENIED BY SCREENING ATTORNEYS WITH NO
“JUDICIAL REVIEW’ AS ORDERED ON 9/6/11

IX.

OPINIONS ENTERED IN THE CASE
Ninth Circuit Appellate Court MANDATE [App.
No. 19- 55351] dated 5/25/20
2:11 cv 04996 PA
FMO District Court.
For the Court Molly Dwyer
Clerk [App. p. 2a]
Ninth Circuit Appellate Court ORDER [App. No.
19-55351] dated 5/17/20 Silverman, W. Fletcher,
and Rawlinson Circuit Judges [App. p. 3a]
District Court Judge Percy Anderson ORDER dated
12/11/18
cv 11-4996 PA (FMOx) [App. 4a — 5a]
3/18/20 Notice of Electronic Filing

[App. 6a]

3/18/20 Notice of Clerical Error

[App. 7a]

District Court Judge Percy Anderson ORDER for
dated 9/6/11 cv 11-4996 (FMOx)
Case Closed;
Judicial Review Required [App 8a]
Ninth Circuit Appellate Court ORDER dated 1/3/18
Ninth Circuit Court Chief, Thomas, Silverman, and
Rawlinson
[No. 16-56176]
[App. 10-1 la]

FEDERAL COURT RECORDS AND DOCKET
NOT FOUND BY CLERK 2:12 CV 1963 PA
(FMOx)
Notice of Deficiency
Default/ Default Judgment
3/14/12
[2:12 cv 01963 PA (FMOx)
[App 12 a]
District Court Judge Percy Anderson Order dated
March 13, 2012
cv 12- 1963 PA (FMOx) [App
13a]
1.

JURISDICTIONAL STATEMENT
Dr. Delaney Smith, Civil Surgeon for the United
States Government, is an involuntary “pro se”
litigant because recommended LA County Bar
Association attorneys refused to accept case on fee
for service basis due to an unstated “conflict nf
interest”. The United States Supreme Court Justices
have exclusive jurisdiction to review, deny or revise
WCAB decisions pursuant to Feldman. This petition
for writ of certiorari [filed pursuant to FRCP
60(b)(4)] is timely filed within 90 days of the final
ruling of Ninth Circuit Court of Appeals on March
17, 2020 and therefore within the 90 day statutory
time period limitation of Rule 31.1.
Re- Conflict of Interest- Ick-fc State Law SBX 211
legalized payments by County of Los Angeles to state
employees [Superior Court judges] as “tax free
stipends” previously ruled to be illegal [Sturgeon v.
County of Los Angeles (2008)]; legislation was
opposed by the State of California Judicial Council.
Law appears to be “unconstitutional” pursuant to the
intent of the United States Congress as expressed in
federal statute 28 USC sec 455(a)(b)(4) because it
contains no clause that requires judges to make
financial disclosure or self recuse...which has
corrupted both state and federal court judges, to such
an extent...Los Angeles County counsel [who are
criminals pursuant State of California Department of
Industrial Relations - WARNING TO ATTORNEYS]
prevailed without ever filing an answer to FAC.

2.

STATEMENT OF CASE

Pursuant to FRCP 60 (b)(4) several Petitions for
Relief From Void Rulings were served Clerk at Los
Angeles Federal District Court but court routinely
denied each of them and ignored the fact that
petitioner is a federal plaintiff with a right to federal
court venue under federal laws cited herein. Ninth
Circuit Court of Appeals in violation of petitioner’s
Federal Civil Rights and right to “due process” and
hearing refused to file the timely served Notice of
Appeal on 1/4/19 submitted in response to the district
court’s 12/11/18 ruling and did not post the paid
filing fee thereby essentially stealing the $505.00 fee.
Notice of Appeal is a requisite for subject matter
jurisdiction of a Circuit Court and in the absence of a
Notice of Appeal “there is no arguable basis for the
Appellate Court to make rulings” as all such rulings
would be rendered “null and void”... which is ground
for this petition for writ of certiorari [filed pursuant
to FRCP 60(b)(4)]. With no NOA on file there is no
opportunity for valid hearing at the Ninth Circuit
Court of Appeals before an “en banc panel” which
according to Rutter’s Federal Appellate Procedure is
“automatically
invoked”
when
there
are
contradictory rulings within the same Circuit Court.
The face of the NOA states Civil Matter: 12/11/18
Denial of 60(b)(4) Motion to Reopen Closed Case
No Judicial Review; No Ruling on Jurisdiction
Contradictory District Court Rulings and Remand
3.

to State Court that Denies Jurisdiction on 7/29/11
2:11 cv 11 -4996 PA (FMOx) Related to cv 05986 NM
(CWx). NOA to date has not been filed by the Court
of Appeal and filing fee is not recorded in the record.
With no NOA in the record instead of an “en banc
panel ruling” as is required to address the issue of
“contradictory rulings” the Ninth Circuit Panel of
Barry Silverman, William Fletcher and Johnnie B.
Rawlinson, who had been previously disqualified for
reasons stated herein [in addition to no arguable
subject matter jurisdiction to rule on their own
contradictory rulings.....ruled on April 2, 2019 ...
“A review of the record suggests that this appeal of
the district court’s December 11, 2018 post judgment order may be appropriate for summary
disposition under Ninth Circuit Rule 3-6 (b). See
United States v. Hooten 693 F 2d 857, 858, (9th Cir.
1982)(stating standard for summary affirmance),
In addition to being made in the absence of subject
matter jurisdiction to “rule on their own
contradictory rulings” “there is no arguable subject
matter jurisdiction for a federal Appellate Court
judge substitute a federal criminal case judicial
standard [USA v. Hooten] to a 60(b)(4) Petition For
Relief From Void Rulings. This deliberate
misapplication of an incorrect “judicial standard” for
a FRCP 60(b)(4) violated this petitioner’s
Constitutional 5th Amendment right to a hearing,
that is consistent to Rule 60(b)(4) judicial
standard...either ruling is void or it is valid, with no
discretion to ignore or otherwise dismiss an
4.

appropriately filed 60(b)(4) Petition. Additionally the
ruling violated the FEDERAL ERIE Doctrine as the
defendants in default pursuant to established case
law cited herein WA Rose v. Municipal Court
prohibits courts from considering the writings from
defendants in default.
The defendants filed no Appearance in this case [and
therefore effectively out of court] but according to the
Appellate Court Docket #1
“Appearances were
filed...” but a review of the record reveals no such
filing and accordingly cannot be downloaded from
Pacer [because no such appearance was ever filed].
This is a clear and glaring example of “institutional
systematic racism”.... and “judicial fraud”... that has
caused our prisons to overflow with 25% of the
world’s incarcerated population while this nation
represents 4% of the world’s population, all of which
begins “not with the criminal justice system” it is the
entire legal justice system... that needs revision
beginning with the UNITED STATE SUPREME
COURT as is the duty of the United States Congress
under the Bill of Rights.
Los Angeles County defendants never filed an
answer in state or federal courts and filing
demurrers are illegal and therefore prohibited in
State of California workers compensation law cases,
which no attorney, judge or court can deny or
contravene for purpose of facilitating worker
compensation fraud.

5.

Title 8 California Code of Regulations section 10490
states^
“Demurrers, petitions for judgment on the pleadings,
and petitions for summary judgment are not
permitted” -see Workers Compensation Laws of
California 2004 Edition
In violation of Federal Trespassing Laws instead of
referring this case to the Ninth Circuit’s
“automatically invoked en banc” to rule on their
contradictory rulings,
the panel of Silverman,
Fletcher and Rawlinson high jacked the case by not
filing the NOA [filed for contradictory rulings] and
then ruled “in the absence of any arguable basis for
subject matter jurisdiction to make such ruling....
that there would be no “en banc hearing”. In
subsequent rulings the final of which was on March
17, 2020 [ upon which this petition for writ of
certiorari is filed in compliance with United States
Supreme Court Rule 13.3.] The Ninth Circuit
Appellate Court ruling with no NOA or appearances
by defendants in the record by the disqualified
Appellate Court Panel was criminal violation of
Federal Civil Rights Act section 1983 committed
while acting under “color of law”; violation of
Federal Civil Rights Continuing Acts Doctrine, and
in this primary treating physician’s Opinion these
acts constitute a “hate crime against this petitioner”
[knowingly committed by judges “acting under color
of law”.... “in the absence of any arguable subject
matter jurisdiction over person” [primary treating
physician pursuant to labor section 4061.5]
6.

In response to the district court’s 12/11/18 ruling
whereby in response to 60(b)(4) Petition For Relief
From Void Rulings the federal court judge ruled the
“Plaintiff filed this action in the Los Angeles County
Superior Court on April 11, 2011. After Defendants
removed the action to this Court, the Court
remanded the case upon Plaintiffs explicit
disclaimer of any federal claims alluded to in the
Complaint. (See Minute Order of July 25, 2011, cv
11-4996 PA (FMOx). After the Superior Court
dismissed Plaintiffs action with prejudice, Plaintiff
attempted to remove the case to federal court. (See
Minute Order of July 25, 2011 CVl1-4996 PA
(FMOx).”
The 12/11/18 ruling failed to mention that
defendants had filed a tardy removal of First
Amended Complaint and while in default had
thereafter failed to file an answer in either state or
federal courts. Following the 7/25/11 Federal Court
Order to Remand..... on 7/29/11 “Los Angeles County
Counsel” identified by the default window clerk
supervisor as attorney Stephen Bennett [who also
doubled as Counsel for Los Angeles Superior Court
told the clerks they could not file plaintiffs Request
for Entry of Default because the case is in federal
court. In the state of California attorneys who make
false statements for the purpose of facilitating
workers compensation is a crime pursuant to
Insurance Fraud Code section 1871.4, and penal code
sections 549, 550 as set forth in the Warning to
Attorneys from the State of California Department of
7.

Industrial Relations -administrative director dated
October 1, 2012. “Workers Compensation Fraud is a
Crime-' Under Insurance Code section 1871.4, it is a
felony to make or cause to be made knowingly false
or fraudulent material statement or material
representation for the purpose of obtaining or
denying compensation, as defined in Labor Code
section 3207, or present or cause to be presented any
knowingly false or fraudulent material statement in
support of, or in opposition to, any claim for
compensation for the purpose of obtaining or denying
compensation, as defined in labor code section 3207.
It is a crime to knowingly assist, conspire with, or
solicit any person in an unlawful act of workers
compensation insurance fraud. ”
Following the federal court’s order to remand on
7/25/11 stamped by the administrators on 7/27/11 in
room 102 as received [by signed letter of
acknowledgment] but then have these documents
concealed from Los Angeles Superior Court clerks
and Court by Los Angeles County Counsel [while
business as usual] is a crime pursuant to the State of
California’s administrative director’s WARNING TO
ATTORNEYS.
In what should have been a slam dunk case with
defendants in default and refusing to answer FAC
....the 12/11/18 ruling of the district court judge
seemed to reward the defendants for described
criminal
misconduct
and
clear
“workers
compensation fraud”.... failed to mention that unable
to file for “default and judgment” as late as 9/6/11 at
8.

Los Angeles Superior Court with no order to remand
in state court file [mailed by federal court clerk] and
because under state law remand jurisdiction does not
re-vest at state court until the clerk files the order to
remand.... FEDERAL PLAINTIFF filed a federal
court action on 9/6/11 prior to any state court
hearings....that contained federal claims and was
entitled.... “Plaintiffs Notice of State Court Clerk’s
Error In Failing To File Order For Remand;
Contempt of Court; Obstruction of Justice Bv
Defendants; And Request For U.S. Marshall to Hand
Deliver Federal Court Order For Remand to State
Court Judge” [FRAUD UPON THE COURTS]
[LABOR CODE SECTION 5955]
[PURSUANT
TO 28 U.S.C. 1445(c)]
The document explained.... “The court room was
dark for approximately a 2 week period that
extended to 8/25/11. Yesterday it was reported that
not only was the Court Order missing, but also the
FAC Complaint was also missing from the judge’s
chamber, and had reportedly been removed by
County Counsel, according to a reliable source at the
court house. There was no reason for the defendants
in this case to remove the file for the judge’s court
room, except for the purpose of tampering with the
FAC, and or it’s nearly one inch thick attachment of
Exhibits”.
Federal Action Continues
Los Angeles County Fraud Upon the Courts
“ In serving the plaintiff with the Demurrer dated
9.

8/9/11 [not filed with the clerk] the defendants, and
their counsel engaged in mail fraud and legal
malpractice, by knowingly filing another demurrer in
this case as they had been admonished in federal
court that such filings are moot as they violate 8
CCR section
10490 which prohibits filing
Demurrers....”
Federal Action Filed 9/6/11 Continues^
RETALIATION
“The instant case was filed right after a “Right to Sue
Letter” was issued from the EEOC, and a statute of
limitation waiver extends in that this case is still
under investigation by the EEOC.”
Continuing,
Judicial Committee Review
“Plaintiff contend[s] ignoring a federal court judge’s
Orders is a serious matter. It should not be necessary
for the U.S. Marshall to deliver the judge’s Order in
this case......... ”
“..... The conduct at State Court in hiding the federal
court Order on more than one occasion in this matter
would appear to be worthy of Judicial Council
Review.”
Plaintiffs federal action entitled..... ’’Notice of State
Court Error” in Failing to File Order For Remand....
etc was stamped by the federal court clerk “Received
10.

But Not Filed” Sept. 6, 2011.
The same day 9/6/11 the federal court judge served
still another Federal Order to Remand this time with
“Judicial Review Required” all of which was once
again ignored by Los Angeles Superior Court who
completely disrespected the African American judge
attempting to administer justice. But while seeking
to remand the case the federal court judge was
informed but seemingly overlooked the fact that the
Federal EEOC “right to sue letter” created “original
federal
court
subject
matter
jurisdiction.”
Additionally, the federal action filed on 9/6/11
created “concurrent jurisdiction” in both courts that
did not vanish when the state court made a judgment
on 3/2/12.
Accordingly, under federal law Pursuant to the
Federal Jurisdiction and Venue Clarification Act the
federal action and claims should have been filed and
ruled on by the district court judge.... but each ruling
appeared the reward the defendants for their
disrespect shown towards him which is somewhat
puzzling. The state court, and Ninth Circuit Court of
Appeals ignored the federal judge’s 9/6/11
“administrative closure” and Order “Case Closed:
Judicial Review is Required.
Under federal law only the Justices of the United
States Supreme Court can review, modify, or in any
way change or ignore WCAB decisions [ie pertinent
to this case Joyce Chapman v. Los Angeles County
MTA Case No. MON206148 FINDING OF FACTS
By WCABjudge Pamela W. Foust. Pertinent to the
11.

workers compensation claims of injured worker Joyce
Chapman and others under the care of this “primary
treating physician”... WCAB judge Foust ruled.... “Said
claim is not barred by the doctrine of laches or equitable
estoppel”. 1/17/01
This one ruling by a single WCAB judge rendered all
federal district court rulings that attempted to assign
time limits to this [now 20 years] collections effort
[ie. R. Gary Klausner (2016)] and Ninth Circuit
Appellate Court rulings [ie. Thomas, Silverman and
Rawlinson 5/24/17] ... were rendered “null and void”
because federal court judges cannot overrule WCAB
judges.
Accordingly the 9/6/11 federal court’s order “Judicial
Review is Required” can only be ruled on by the
Justices of the United States Supreme Court that no
other judge or attorneys can overturn because the
ruling of the WCAB judge Pamela Foust is final.
Labor Code section 5953- Appeals Board’s findings of
fact are final; right to appear at hearing
“The findings and conclusions of the appeals board
on questions of fact are conclusive and final and not
subject to review. ” See Workers Compensation Laws
2004 Edition

United States Supreme Court has ruled,
“The United States Supreme Court has exclusive
jurisdiction to review state appellate decisions.
12.

Feldman, 460 US. at 486. See also 28 USC sec 1257.
This rule applies even when the state court judgment
remains subject to appeal before the highest court,
see Worldwide Church of God v. Me Nair, 805 F. 2d
888, n.3 (9th Cir 1986), and when the challenge to the
state actions involves federal constitutional issue.
Feldman 460 U.S. Me Nair 805, F. 2d at 892-93...
Because resolution of Sherman’s current claims
would require a review of the merits of the WCAB’s
and state court decisions, the district court did not
err by concluding that it lacked subject matter
jurisdiction over the claims. Feldman 460, U.S. at
484-86; Me Nair 805F2d at 892-93.
Ninth Circuit Court of Appeals Panel of Browning,
Farris and Leavy ruled “Because resolution of
Sherman’s current claims would require review of
the merits of the WCAB’s and state court’s decisions,
the district court did not err by concluding that it
lacked subject matter jurisdiction over the claims”.
Sherman v. Berlin.
In the absence of a court’s subject matter jurisdiction
there is nothing that a plaintiff or defendant can file
to create subject matter jurisdiction, where it cannot
exist [pursuant to the intent of the United States
Congress as expressed pursuant to federal statute 28
U.S.C. section 1445(c); unless the litigant is an
African American, or in Southern California where
unlike Northern California a “slide rule of justice” is
applied based upon socio-economic class status and
wealth in addition to the usual element of race.

13.

Then, different rules apply and so instead of applying
the usual judicial standard which requires “sua
sponte” remand of these cases... in a hand is quicker
than the eye move...the panel of Farris, Boochever
and Leavy would switch gears to apply a “federal
“diversity of citizenship case” “judicial standard”
making it applicable to this California state law
workers compensation fraud case ....[which resulted
in one of many such “contradictory rulings within the
same Circuit... and even by the same judges, who
joined in with defendants engaged in criminal acts,
for purpose of concealment and thereby facilitating
the workers compensation fraud of employer Los
Angeles County MTA and their attorney Los Angeles
County counsel defendants in the instant case
60(b)(4)].
Pertinent to the underlying MTA case Farris,
Boochever, and Leavy would rule... “Removal [of
state workers compensation law fraud case] was
available because the district court had original
jurisdiction arising under federal law. 28 U.S.C. sec.
1441(b). Assuming; only for the purpose of argument,
that Smith’s claim are one “arising under” California
workers compensation law, Smith filed an amended
complaint in federal court. In these circumstances,
Smith’s claim may be properly viewed as having been
initiated in federal court, Vasquez v. North County
Transit Dist. 292 F 3d 1049, 1061 (9th Cir 2002) ....
which facilitated the fraud of county counsel by
affirming federal district court rulings for summary
judgment that are illegal pursuant to the Federal
ERIE DOCTRINE and California Code of
Regulations 8 CCR sec 10490 cited above, and the
14.

WARNING TO ATTORNEYS from State of
California Department of Industrial Relations that
prohibits attorneys from making false statement
pertinent to workers compensation fraud of an
employer [as criminal acts pursuant to Insurance
code section 1871.4, penal code sections 549, 550],
which is the reason that is predictable that the
defendants in default for never filing an answer will
not file an answer to this petition for writ of
certiorari before the United States Supreme Court.
Re- State Court Ruling that Incorporated State Court
Decisions of Disqualified Judges
“A final but void order can have no preclusive effect.
A void judgment [or order] is, in legal effect, no
judgment. By it no rights are divested. From it no
rights can be obtained. Being worthless in itself all
proceedings founded upon it are equally worthless. It
neither binds nor bars anyone. ” [citation] Bennett v.
Wilson (1898) 122 Cal. 509, 513 - 514 (55 P.
390)(bid)
Disqualification and Invoked Recusals Prior to
Ruling that Primary Treating Physician [pursuant to
Tabor code 4061.5] is a “vexatious litigant” in the
Absence of a Trial, and rebuttals by A.M.E. or
Q.M.E.
Pertinent to his 12/11/18 ruling in this case the
federal court judge was informed and therefore
should have known that state court judge Rex
Heeseman’s recusal had been invoked pursuant to
28 U.S.C. sec 455(a)(b)(4).... after not denying on the
15.

record that he had taken over a million dollars from
the LA County defendants. Months later he was
removed from the case and courtroom by the State of
California Judicial Council. His replacement Jo Anne
O’Donnell’s recusal was invoked during her first
hearing on 7/27/12 after failing to make financial
disclosures ruled to be illegal by the California Court
of Appeal (Sturgeon v. County of Los Angeles),
regarding how much money she had taken from the
county defendants... and all state court rulings
rendered “null and void for the same reasons”. With
no replacement for judge O’Donnell after her initial
hearing the state court case never terminated after
judge O’Donnell refused to vacate the “void ruling” of
disqualified judge Heeseman required pursuant to 28
USC sec. 455(a)(b)(4)(c) after his removal from the
case by the State of California Judicial Council.
Several months later following her invoked
disqualification for refusing to self recuse or disclose
amount of money she had taken from the Los
Angeles County defendants attorney Clayton
Averbuck requested that she deem the petitioner [
primary treating physician pursuant to labor code
section 4061.5] in the absence of trial as required by
the labor code and with no rebuttal of primary
treating physician’s Opinion by a Qualified Medical
Evaluator [Q.M.E.] or Agreed Medical Evaluator
[A.M.E.], and the ruling rendered “null and void” by
the disqualified judge for the same reasons.
Skipping over the relevant history of the case, with
void state court rulings because no federal order to
remand [mailed by the clerk] was ever filed and fact
16.

that petitioner pursuant to FRCP 60(b)(4) is a federal
plaintiff, who filed a copy of the federal judge’s order
on August 2011, but federal court judge Heeseman
refused to acknowledge the petitioner filing of Order
to Remand for purpose of plaintiffs attempt to file
Request for Entry of Default on 7/29/11 and 8/25/11
both of which were not filed by state court clerk.
Federal Court original jurisdiction established by
EEOC’s right to sue letter and concurrent
jurisdiction established by federal court action served
on 9/6/11 required the federal court clerk to file the
petitioner’s Request For Entry of Default on 3/12/12
which unlike the 9/6/11 document appears nowhere
on the federal docket. Even the 3/13/12 related ruling
on the federal court docket has been expunged but
see appendix
- which raises serious concern when
the federal record cannot be trusted for purpose of
Appeal or Petition for Certiorari,
Federal Court
judge continues.....
“After the Superior Court dismissed Plaintiffs action
with prejudice, Plaintiff attempted to remove the
action to federal court. (See Minute Order of
December 11, 2012, CV 11-4996 PA (FMOx)
This 12/11/18 ruling directly contradicts the ruling of
United States Supreme Court judge Ginsburg... in
FRCP 60(b)(4) Motion served on May 12, 2020 but
still not filed by the district court [perhaps because
the current case docket does not align with
documents attached to Petition [ie federal court’s
ruling on the Request to Enter Default filed 3/12/12
and ruled on 3/13/12 attached to unfiled 60(b)(4)
17.

Petition as Exhibit__ pp.__[but does not appear on
the docket].
United States Supreme Court has ruled,
‘But neither Rooker nor Feldman supports notion
that properly invoked concurrent jurisdiction
vanishes if a state court reaches judgment on the
same or a related question while the case remains
sub judice in a federal court.....”
“The Rooker-Feldman doctrine does not preclude the
federal court from proceeding in this case. Exxon
Mobile has not repaired to federal court to undo the
Delaware judgment in it’s favor, but appears to have
Sled it’s federal suit (only two weeks after SABIC
filed in Delaware and well before any judgment in
state court) to protect itself,
Rooker Feldman did
not prevent the District Court from exercising
jurisdiction when Exxon Mobile filed the federal
action, and did not merge to vanquish jurisdiction
after Exxon Mobile prevailed in the Delaware courts.
The Third Circuit misperceived the narrow around
occupied by Rooker — Feldman, and consequently
erred in ordering the federal action dismissed. ” 364 F
3d 102, reversed and remanded
Ginburg, J.
delivered the opinion for unanimous Court” Exxon
Mobil Corp. v, Saudi Basic Industries Corp. 544 U.S.
280 (2005)
Under federal ERIE DOCTRINE and well
established state law the Request For Entry of
Default filed on 3/12/12 and now hidden from the
federal court docket should have been filed because
18.

state court and all subsequent courts lost subject
matter jurisdiction to do anything in the case except
enter “default and judgment”, which rendered alls
subsequent rulings and “denials” in federal court
“null and void”. The 3/12/12 “Request For Entry of
Default” and 3/13/12 ruling by the district court
judge are now both missing from the federal court’s
electronic data base and court dockets now being
issued by the clerk of the district court, fsee
Appendix - pp
district court’s 3/13/12 ruling on
Request to Enter Default]. The removal of these
rulings from the court’s record appears to infer that
the district court judge now recognizes and agrees
that the ruling is “null and void” because “there is no
arguable basis for subject matter jurisdiction for
district court to deny federal plaintiffs ‘Request to
Enter Default” in federal court venue [pursuant to
the intent of the United States Congress as
expressed in the Federal Venue and Clarification
Act].
Additionally, pursuant to Federal Erie Doctrine and
well established state case law cited herein [W.A.
Rose v. Municipal Court] after state court failed to
file and enter “Request for Default and Judgment”
that should have been filed at state court on 7/29/11
thereafter court[s] lost subject matter jurisdiction to
do anything but enter default. Pursuant to Federal
Erie Doctrine and California law which is binding on
state law claims.
‘Failure of Clerk of Superior Court to enter
Plaintiffs Notice ofDefault, prevented the court from
considering the Slings of the Defendants... ”
19.

“The Clerk merely has to look at the record and see if
there is no demurrer, or answer ofsuch notice on file.
Seeing none, he must enter default. ”
“The municipal court thereafter lost jurisdiction to do
anything but enter default andjudgment' [W.A. Rose
v. Municipal Court 176 CA 2d 67; Cal. Rptr; 1 Cal
rptr 49]”
The failure of Los Angeles Superior Court to enter
default on 3/12/12 did not rob the district court of
original jurisdiction or supplemental jurisdiction to
enter default and accordingly there was “no arguable
basis for subject matter jurisdiction”... to deny
federal plaintiffs request to enter default in federal
court on 3/12/12 which is a problem that merely
removing the documents will not mend, for the
purpose of defeating FRCP 60(b)(4) or otherwise
satisfy requisite “immediate monetary relief from
void rulings”.
After careful review of the recently received federal
court docket and foot note on the 12/11/18 ruling it
appears that while federal judge Anderson may have
been mislead by the federal Court Judge Klausner’s
ruling, it appears that he definitely relied upon the
Memorandum filed by the defendants in default [and
thereby invalidated for purpose of review by any
court [as per W.A. Rose v. Muncipal Court] which
according to the 12/11/18 ruling states.... Plaintiff
was declared a vexatious litigant by the Superior
Court on September 19, 2012 (See Docket No 37 at
15-15 CV11 4996PA (FMOx).
20.

Needless to say a ruling on 9/19/12 issued by state
court judge JoAnne O’Donnel nearly 2 months after
her disqualification and invoked recusal [pursuant to
28 USC sec 455(a)(b)(4)(c) on 7/27/12 at her initial
court hearing for refusing to “self recuse” or make
financial declaration of monies paid to her by
defendants [ruled to be illegal by Court of Appeals
Sturgeon v. County of Los Angeles]....is innately
“null and void”. Pursuant to federal ERIE
DOCTRINE and well established California case law,
any court that has relied upon “void rulings” renders
that court’s rulings “null and void” pursuant to state
law:
“A final but void order can have no preclusive effect.
A void judgment [or order] is in legal effect, no
judgment. By it no rights are divested. From it no
rights can be obtained. Being worthless in itself all
proceedings founded upon it are equally worthless. It
neither binds nor bars anyone. ” Bennett v. Wilson
(1898) 122 Cal. 509, 513 -514 (55. 390)(bid)
As set forth in 60(b)(4) Petition’s [Proposed Order]
....served June 3, 2020 but not filed by the district
court] on p. 23... reads: “Pursuant to the Federal
Erie Doctrine and state law cited above the reliance
of this court on judge Klausner’s 2016 rulings
rendered those of this court “null and void” as this
court “lacks any arguable basis for subject matter
jurisdiction” to validate “void rulings” or to include
excerpts of “void rulings” [ie. petitioner primary
treating physician pursuant to labor code section
4061.5 is a “vexatious litigant”]... a decision and
ruling made in the absence of a trial, and no Q.M.E.
21.

f*

or A.M.E. rebuttal of primary treating physician’s
OPINION.
While “vexatious litigant language appears in and
thereby invalidates the 2016 ruling of federal judge
R. Gary Klausner ...newly obtained evidence the
federal court docket reveals that district court judge
Percy Anderson appears to have relied upon the
filings of defendants, who were in “irreversible
default” at the time of the removal of FAC on 6/13/11
and thereafter never filed an answer to FAC in state
or federal courts [also see Beller and Keller v. Tyler

Under Federal ERIE DOCTRINE and well
established California case law rulings that rely
upon defendants in default are innately “null and
void”.
“A final but void order can have no preclusive effect.
A void judgment [or order] is in legal effect, no
judgment. By it no rights are divested. From it no
rights can be obtained. Being worthless in itself all
proceedings founded upon it are equally worthless. It
neither binds nor bars anyone.” [citation] Bennett v.
Wilson (1898) 122 Cal. 509. 513-514 (55. 390)(bid)
Under cited federal and state law any judge who
relies upon and incorporates innately void rulings
into his own decisions and rulings.... said rulings
and any judgments are “null and void”. Other
California laws make it impossible to consider a
defendant’s writings who has not answered the
complaint, within 30 days after answer was due, to
22.

■i

which there is only one exception... that is if
permission to extend time to answer is granted by
the plaintiff’ which did not happen in this case.

According to the 12/11/18 ruling.... the district court
judge reviewed and relied upon the writings
[Memorandum] of defendants in default at time of
7/25/11 remand and written nearly one and a half
years after the answer to complaint was due
rendering the ruling “null and void”... on this
additional ground.
“But this order was an attempt to extend the time to
plead beyond thirty days without the consent of the
plaintiff, and was thereby beyond the jurisdiction of
the court and raze/."(Code Civ. Proc. sec. 1054; Baker
v. Superior Court, 71 Cal. Cal 583; Gibson v.
Superior Court, 83 Cal. 643) [cited by W.A. Rose v.
Municipal Court, 176 Cal. App. 2d 67 (Cal. Ct. App.
1959)
The 12/11/18 ruling stated: “Plaintiff was declared a
vexatious litigant by the Superior Court on
September 19, 2012 (See Docket No. 37 at 15-16, CV
11 — 4996 PA (FMOx)...” suggests that district court
judge’s 12/11/18 may not have relied upon
disqualified federal court judge Klausner’s (2016)
ruling... for this assertion as was previously believed
by petitioner as stated in the related FRCP 60(b)(4)
petition before the district court. Based upon newly
obtained information [the court docket] docket item
no. 37 referenced by the judge in the 12/11/18 ruling
is actually the Memorandum filed [by defendants in
23.

4

V

default] in “Opposition to Motion to Vacate”.
Defendants County of Los Angeles, Raymond
Fortner, Angela Nossett, Mary Reyna (Gysler,
Jennifer) (memorandum entered 11/16/2012)...was
filed with no answer on record in state or federal
courts. The 12/11/18 ruling based upon the filings of
defendants in default was rendered “null and void”
pursuant to W.A Rose cited herein.
The defendants Memorandum was filed in response
to plaintiffs “Notice of Motion and Motion to Vacate
Void Rulings and Judgments” [FRCP 60(b)(4)] filed
11/2/12]....nearly 1 Vi years after answer to FAC was
due.
The 12/11/18 ruling was rendered “null and void” on
the additional ground as previously stated of “no
discretion” or arguable subject matter jurisdiction to
deny a motion to vacate void rulings:
“The court has no discretion to deny a motion to
vacate a void judgment: ‘7f the motion is based on a
void judgment under Rule 60(b)(4), the district court
has no discretion — the judgment is either void or it is
not. ” [Jackson v. FIE Corp. (5th cir. 2002) 302 F 3d
515, 521, (internal quoted omitted) Oilfield v. Pueblo
De Bahai Lora S.A (11* Cir. 2009) 558 F 3d 1210
Additional ground that rendered the federal district
court’s ruling on 12/11/18 “null and void” can be
found in the fact that under federal Erie Doctrine
and state laws no court can even “consider the
writings” of defendants in default.

24.

v/

W.A. Rose v. Municipal Court:
“Failure of the Clerk of Superior Court to enter
Plaintiffs Notice ofDefault, prevented the court from
considering the filings of the defendants” [see W.A.
Rose Co. v. Municipal Court (Fitzsimmons)(l959) 176
Ca 2d 67, 71, CR 49, 52]...” Also see 60(b)(4) Petition
now concealed by federal district court p. 33
Pursuant to Federal ERIE DOCTRINE and well
established State of California Case Law, all rulings
by state and federal courts after 7/29/11 failure of
state court to enter default....were rulings made
outside the scope of jurisdictional authority
[pursuant to WA Rose] and thereby rendered “null
and void...” with no arguable basis for subject matter
jurisdiction to deny “entry of default judgment., and
or deny relief from innately “void rulings” pursuant
to FRCP 60(b)(4) for which relief is mandatory under
the United States Constitution to 5th Amendment an
14th Amendment rights of this petitioner who is a
“black native American” presently called African
Americans, and “niggers” in current American
society, including “court rooms” as demonstrated by
this case.
Re: ON INSTITUTIONAL RACISM
Hiding Key Documents in Court
Worse yet..in courts.... we have come to expect to
receive what American Slang Dictionaries might
describe as the “nigger treatment” as demonstrated
in this case over the past 20 years [with all laws on
25.

>
v'

the plaintiff side... and no defense from defendants
in years...only to be described as a “nigger and
vexatious litigant” by Ninth Circuit and Los Angeles
Superior court judges... none of whom had subject
matter jurisdiction “over person” [primary treating
physician pursuant to labor code section 4061.5] in
the absence of a trial [and with no opportunity for
trial or hearing expressly because of petitioner’s
race]. The federal court docket case number cv - 114996 PA (FMOx) related court document identifies
the “Related Case”
which is 18 USC sec 1912 et.
al... which raises petitioner’s black native American
heritage rights issues but the docket itself is not
available according to the federal court clerk for
reasons she was unable or unwilling to explain
except to say she had no knowledge of why the
dockets and documents are not available.
The 18 USC sec 1912, et. al. I.C.W.A. ENTIRE CASE
FILE remains hidden at federal district court....
Related Case No : 2^12 cv -01963 PA FMO] but
docket number appears as related case on this case
file no. 2-11 cv 04996 PA FMO.... when petitioner
appeared for the scheduled hearing on 11/22/18 the
federal court room door was locked and according to
the courtroom clerk when she appeared many hours
later she explained she had never seen the nearly
500 pages of supporting documents filed in that case
[all of which seemingly disappeared into thin air
“business as usual”].
The district court’s 12/11/18 ruling that the FRCP
60(b)(4) petition for relief from void ruling[s] was

26.

V

denied “because the court lacked subject matter
jurisdiction over the action and lacks power to vacate
state court ruling (See Minute Order December 11,
2012 CV 11-4996 PA (FMOX)”. This ruling was
rendered void because “there is no arguable basis for
subject matter jurisdiction for district court to deny a
FRCP 60(b)(4) petition for relief from void rulings”
[when the ruling made it impossible for the plaintiff
to file entry for default and judgment in either state
or federal court after the federal court’s 7/25/11 order
to remand was stolen by the defendants and
concealed from the default window clerks....thereby
denying this federal plaintiff an opportunity to be
heard.
Directly as a result of the described attorney
misconduct the 7/25/11 federal court order to remand
[mailed by the clerk] needed for state court subject
matter jurisdiction to re-vest at state court [pursuant
to Bennett cited above] created the appearance of a
“jurisdictional hiatus between state and federal court
making it impossible for plaintiff to file for entry of
default in federal or state court.
Illegal creation of a “jurisdictional hiatus” between
the state and federal courts by defense attorney
identified as county counsel attorney Stephen
Bennett by clerks [also doubling as Court Counsel for
Los Angeles Superior Court] occurred while hiding
the 7/25/11 federal court order to remand from
default window clerks and telling them on 7/29/11
not to file the plaintiffs request for “entry of default”
because the case was in federal case [which as a
27.

county prosecutor he knew the law; and accordingly
knew that for any attorney to make false statements
that conceals or facilitates an employer’s workers
compensation fraud is a crime [pursuant to
Insurance Fraud Code section 1871.4 and penal
codes sections 549,550 - Warning to Attorneys from
the State of California Department of Industrial
Relations —administrative director].
Criminal acts by government officials are always a
violation of public policy to which immunity does not
extend under cited state and federal laws including
judges.
“ When a judge knows he lacks jurisdiction, or acts in
the face of clearly valid statutes expressly depriving
him ofjurisdiction, judicial immunity is lost. ” Zeller
v. Rankin 101 S. Ct. 2020 451 U.S. 939, 68 L. Ed. 2d
326

Which as a gadget of “institutional ....systemic
racism” the law is turned off and the opposite
applies... and accordingly after their rulings in this
case federal court judge Nora Manela received
prestigious awards in Century City and was
appointed to the California Supreme Court, state
court judge Rex Heeseman is believed to have been
paid 4.2 million dollars [10% of case value] an
amount requested [without further explanation] by
county counsel and granted by the Los Angeles
County Board of Supervisor in December 2011 and
day later he refused invoked recusal and continued
making rulings, state court judge O’Donnell was
appointed to a State Ethics Committee, and attorney
28.

Eric Schnurpfeil [who hid the 8/2/02 administrative
director’s ruling against defendant Cambridge
Integrated Services [aka Sedgwick CMS, Presidium,
Hertz Claims Management [a subsidiary of American
Airlines] thereby protracting this case... was
appointed as Deputy of State of California Ethics
Commission].
This case is a multifaceted, mixed motive Federal
Civil Rights case that includes many “causes of
action”. The Federal EEOC “right to sue letter”
created federal original subject matter jurisdiction.
There is a WCAB, and workers compensation fraud
related component. However related civil claims for
damages are not within the exclusivity of the WCAB
that include Federal FCC, mail fraud, RICO, and
Federal Military related loss of services and related
loss income due the conduct of the employer Los
Angeles County MTA, county prosecutors [who are
defendants in this case] sued for illegal interference
in the collections process by filing false documents in
courts and the arbitration hearing with First Health
which disrupted that arbitration., resulting in a
arbitration settlement of $300,000.00 with project
net loss of over $7,400,000.00... with judge Manella
illegally threatening to dismiss the case against First
Health if not settled in arbitration. The co-defendant
said that they had wanted to settle during mediation
but could not settle until petitioner first settled with
Los Angeles County MTA [for reasons not
explained]??? Various other co-defendants included
several “unlicensed” co-defendants acting as third
party administrators and Travelers Insurance
Company [ a Property and Casualty Company] that
29.

V'

engaged in illegal acts for purpose of facilitating
worker compensation and other “insurance frauds”
acts under various names [but is an unlicensed
health insurance company and unauthorized illegal
Health Care Company [HCO] when operating in the
State of California without a license; which Travelers
admits.
These defendants and others were named in the
underlying MTA fraud case that ended with no final
ruling after the mediator a federal court judge
explained that we should settle the case because the
district court judge Nora Manella said “she does not
like niggers and has no intention of allowing this
case to go to trial” [required to adjudicate California
State worker compensation cases]. That case filed in
2000 at Los Angeles Superior Court had been
removed to federal court by county counsel to avoid a
trial in state court [required pursuant to 8 CCR sec
10490] and actually terminated under federal law
terminated with 6/30/00 Motion to Remand which
was ignored and judge Manella refused to address
the issue of “lack of subject matter jurisdiction” [to
adjudicate state law workers compensation claims in
federal court without a trial and using federal laws].
Lack of subject matter jurisdiction for federal court
to adjudicate state law workers compensation claims
by substituting federal laws for state regulations
[Title 8 California Code of Regulations section
9792.5, and 10490] rendered all of the MTA case
rulings “null and void”. Los Angeles County Counsel
acting as defense attorneys for MTA were sued in
2011 for their role in fraud and illegal defense
30.

V

[pursuant to 28 USC sec 1445(c)] that resulted in
the MTA case having no dispositive ruling... because
in 11/19/04 judge Manella had attempted to illegally
extend the state law contract based arbitration
agreement with First Health PPO network to MTA
and the other co-defendants [none of whom had a
contract with petitioner and therefore no right to
arbitration].
About that same time she insinuated that this
primary treating physician [pursuant to labor code
section 4061.5] could be a “vexatious litigant” but she
“lacked any arguable basis for subject matter
jurisdiction over person” as a federal court judge in
the absence of a trial and rebuttal from a Qualified
Medical Evaluator [Q.M.E] or Agreed Medical
Evaluator [A.M.E], Additionally, her ruling were
invalidated by the rulings of WCAB judge Pamela
Foust and others cited herein. Perhaps most
importantly the State of California Department’s
administrative director Gannon (8/21/02) ruled
against co defendant third party administrator
Cambridge Integrated Services for it’s “business as
usual practice” of not paying penalty and interest as
an automatism when uncontested medico-legal bills
are not paid within 60 days of receipt, which federal
judge Manella’s rulings did not at all reverse as they
were rendered “null and void” by the administrative
director.
The string of affirming Ninth Circuit Appellate
Court decisions were all rendered “null and void” for
the same reason... Ninth Circuit Court of Appeals
lacks any arguable basis of subject matter
31.

V

jurisdiction to make innately void rulings of judges
Manella and her successor in MTA case R. Gary
Klausner valid.
In the underlying MTA case lack of subject matter
jurisdiction was a continuing violation of due process,
which was indeed the net effect and intended result
of defense attorneys who improvidently removed
state law workers compensation cases to federal
court, for purpose of facilitating the workers
compensation fraud of employers as set forth in the
State of California Department of industrial
relations administrative director’s Warning to
Attorneys [pursuant to Insurance Fraud Code section
1871.4, penal code section 549, 550] which prohibits
attorneys from making false statements for purpose
of facilitating workers compensation fraud.
Lack of “original subject matter jurisdiction” is not
an issue in the instant action filed pursuant to FRCP
60(b)(4) for several reasons that include the fact in
the related case filed 2011 against the Los Angeles
County defendants, the EEOC had issued a right to
sue letter that created original subject matter
jurisdiction for this court as explained herein.
Concurrent jurisdiction was established by the
separate federal action filed on 9/6/11 that contained
federal claims that was never ruled on by the federal
court judge Percy Anderson. The 7/25/11 federal
court order to remand [pursuant to 28 USC sec
1447(c)] was a decision that is consistent with
“supplemental created by “right to sue letter.”
Concurrent jurisdiction was created when federal
32.

V

plaintiff filed the 9/6/11 federal action while state
court was denying subject matter jurisdiction to file
the request for entry of default that should have been
filed on 7/29/11 and 8/25/11 [therefore long before the
initial state court hearing in October 2011]. During
the November 2011 state court jurisdiction ruled
that state court jurisdiction did not begin until
November 2011 but judge Heeseman never filed the
federal order for remand required for state law to
revest pursuant to state law Bennett cited herein
rendering all of his rulings “null and void”.
The federal judge’s conclusion that he lacked subject
matter jurisdiction to make rulings after 7/25/11
order to remand was more than simple err, because
it robbed petitioner of opportunity to adjudicate
perfectly valid state and federal claims in either
state or federal courts. Under federal ERIE
DOCTRINE and State of California the state court
forfeited subject matter jurisdiction to do anything
but enter the default after 7/29/11 when the court
clerk failed to file and enter Request to Enter Default
on 7/29/11 that should have been filed. There is
evidence that the acknowledgment of receipt of order
to remand was stamped and signed on 7/27/11 in
room 102 by Los Angeles Superior Court
administrators, [also see- Petition 60(b)(4) Exhibit
pp. served via United States Postal Service on May
12, 2020 but never filed by the district court clerk
[without explanation] which had the net effect of
facilitating the workers compensation fraud
SCHEME OF COUNTY OF LOS ANGELES AND ‘
LOS ANGELES COUNTY COUNSEL AND THE
33.

*

TAX PAYERS WHO FUND
COMPENSATION PROGRAM.

MTA’S

WORKER

LOSS TO FEDERAL TAXPAYERS
$33,000,000.00 of taxpayers funds [alleged to be
workers compensation premiums disappeared when
Los Angeles County Counsel and Los Angeles County
MTA made the false claim that effective September
1, 1998 the workers compensation program was fully
insured by Travelers Insurance “a Property and
Casualty Company”. Also see 60(b)(4) Pet. 51 served
on district court but still not filed., as this is evidence
of mail fraud and ongoing Federal RICO violations
that continue to this day [but as penalty and interest
continues to accrue pursuant to the administrative
director’s WARNING TO ATTORNEYS regard false
statements that no federal court judge, or attorney
can ignore, modify, deny or reverse by anv means
other than the Justices of the United States Supreme
Court pursuant to Feldman.
There is concern that someone with access to the
district court Clerk’s Office has concealed the most
recent FRCP 60(b)(4) Petition from judge Percy
Anderson as a business as usual practice for which
there are other examples [ie the Request for Entry of
Default filed at Federal Court on 3/12/12 appears
nowhere on the docket and even the related ruling by
judge Anderson is missing from the district court’s
docket [evidence of ruling 3/13/12 ruling attached as
an Exhibit to unfiled Petition For Writ of Certiorari
at district court.
34.

s

There is growing concern that the reason the Petition
FRCP 60(b)(4) has not been filed is because it cannot
be filed with documents attached [presented as
Exhibits] that do not appear on the federal court’s
docket
as the district court clerk is now reporting
that the docket for an entire Federal I.C.W.A 18 USC
sec 1912 et. al. case filed in 2018 but is still missing
missing from the district court record [2-12 cv 01963
PA FMO] even though it appears as a “Related Case”
on the this docket [2^11 cv 04996 -PA-FMO]
These are continuing acts that violate this
petitioner’s “right to due process”, which as primary
treating physician... included the right to a trial,
which instead was denied because. of petitioner’s
race, and affirming Appellate Court decisions ruled
that the issue raised [being denied a trial because of
race] was so insubstantial as to not require a hearing
and lower court rulings were repeatedly affirmed].
PRIMARY TREATING PHYSICIAN’S OPINION
It is this primary treating physician’s opinion “there
is no arguable basis for subject matter jurisdiction of
district court judge Nora Manella” to adjudicate
state worker compensation fraud claims by
substituting federal laws for state administrative
laws, and ignoring administrative directors
WARNING TO ATTORNEYS [PURSUANT TO
INSURANCE FRAUD CODE SECTION 1871.4,
PENAL CODE SECTIONS 549,550]. Federal court
judges Manella and Klausner and attempted to settle
the claims of this primary treating physicians
Opinion, in the absence of a trial.... by applying a
35.

contract related arbitration settlement agreement
with First Health PPO Network to co- defendant
MTA and other defendants, which was in violation of
federal and laws because none of the co-defendants
had a contract with petitioner, and therefore no
agreement to arbitrate.
The ruling of federal court judge Percy Anderson on
12/11/18 is “null and void”because there is “no
arguable basis for subject matter jurisdiction” to
ignore and not rule on a FRCP 60(b)(4) Motion for
Immediate Relief From Void Rulings filed by a
Federal Plaintiff or any other plaintiffs with right to
due process under the 5th Amendment of the
Constitution of the United States... and for anyone to
deliberately, knowingly do so is an Obstruction of
Justice pursuant to the intent of the United States
Congress as expressed pursuant to 18 USC section
1001, 1503, 1505, and Federal Jurisdiction and
Venue Clarification act; and violations of the 5th and
14th Amendments of the United States Constitution
and net effect would be to facilitate the workers
compensation fraud of the County of Los Angeles and
it’s attorneys Los Angeles County Counsel. It was a
Continuing Act under the Federal Civil rights act sec
1983, when acting under “color of law” the
defendants initiated various schemes to facilitate
racial discrimination, including attempts to re­
segregate the racial panel of the employer Los
Angeles county MTA by making the false claim [in
violation of Ins. code sec 1871.4, and penal code
sections 5449,550] of having workers compensation
insurance with Travelers Insurance company which
was impossible pursuant to labor code licensing
36.

requirements under section 4600.35, and without an
approved application as required for HCOs under
labor code section 4600.5. Furthermore Travelers
filed Admissions in federal court Insurance Company
that is had no license to operate as an insurance
company [also see FRCP 60(b)(4) petition now hidden
by federal district court for Evidence of Insurance
Fraud Exhibit A pp. 43'75 [a petition that cannot be
filed without further incriminating the defendants
and involved judges pursuant to the State of
California’s Department of Industrial Relations WARNING pursuant to Insurance Fraud Code
section 1871.4, and Penal code section 549,550 and
related RICO violations and mail fraud rulings of the
State of California Supreme Court [Vacanti v. State
Compensation Insurance Fund -see hidden petition
United State Supreme court has ruled:
“If federal plaintiff presents an independent claim,
even one that denies a state’s legal conclusion in a
case in which the plaintiff was a party, there is
jurisdiction and state court determines whether the
defendant prevails under preclusion principles. ”
Exxon Mobil Corp v. Saudi Basie Industries Corp.
544 U.S. 280 (2005) [see hidden district court Pet.
pg. 24 —which the district court now refuses to file
without explanation]
“[flederal courts have a “virtually unflagging
obligation” to exercise the jurisdiction conferred upon
the by the coordinate branches ofgovernment and
duly invoked by litigants, (citing Colorado River
37.

Water Conservation Dist. V United States 424 U.S.
800, 818, 96 S. Ct. 1236, 1246, 47 L Ed. 483 (1976)
[Cited by 9th Cir. Court of Appeals - see Brockman
v. Merabank 40 F 3d 103 [No.93_15505](l994) which
proves the Ninth Circuit Panel is not ignorant of the
law].
Petitioner was denied an Appeal by “En Banc Panel”
as is required when invoked by “contradictory rulings
within the same Circuit’s Court Appeals, but “lacked
any arguable basis for subject matter jurisdiction” to
make required ruling with no NOA in the file or
docket of Ninth Circuit Court of Appeals...as a clear
demonstration “judicial fraud” for purpose of
denying petitioner’s Federal Civil Rights pursuant
to Federal Civil Rights Act sec. 1983 “while acting
under color of law and mechanism of “Institutional
Racism” ... in place to prevent the ascent of African
Americans in American society since the foundation
of the legal system by the founders of the legal
system, and “framers of the United States
Constitution” many of whom were slave owners
intent on preserving their right to own “human
beings” minds,, bodies and souls as their property ...
while admitting., “all men are created equal” and
claiming.... “in GOD WE TRUST”.
Ninth Circuit Court of Appeals failed and then
refused to file the Notice of Appeal required for
“subject matter jurisdiction” to make ruling... but did
assigned Appeal Case No. 19-55351 to “Appeal or
60(b)(4) Petition served on the Court in response to
12/11/18 district court ruling and upon which this
petition for writ of certiorari is based [and therefore
38.

filed pursuant to FRCP 60(b)(4)] after being denied
the right to an appeal with no NOA in the Ninth
Circuit Court’s Appellate file and therefore “no
opportunity to be heard” in state or federal courts.
The United States Supreme Court has written “A
void judgment is a legal nullity. See Black’s Law
Dictionary 1822 (3d ed. 1933).....
A judgment is not void, for example, “simply because
it is or may have been erroneous, Hoult v. Hoult, 57
F3d. 1, 6 CA 11995)', 112 J. Moore et. al. Federal
Practice sec. 60.44 [l][a], pp. 60-150.... Instead, Rule
60(b)(4) applies only in the rare instance where a
judgment is premise either on a certain type of
judicial error or violation of due process that deprives
a party of notice or opportunity to be heard.” See
United States v. Boch Oldsmobile, Inc. 909 F2d. 657,
661, sec. 60.44 [l][a[; 11 C Wright A. Miller, & M.
Kane, Federal Practice & Procedure sec 2862, p. 331
(2d ed. 1995 and Supp. 2009),' of Chicot County
Drainage Dist. v. Baxter State bank, 308 U.S. 371,
376, (1940); Stoll v. Gottlieb, 305 U.S. 165, 171
(1938)...Rule 60(b)(4) strikes a balance between the
need for finality ofjudgments and insuring that
litigants have a full and fair opportunity to
litigate...[cited from United Student Aid Funds Inc.
v. Espinosa [No. 08-1134] argued December 1, 2009,
decided March 23, 2010]
FEDERAL RICO CLAIMS ARE EXEMPT FROM
EXCLUSIVITY OF WCAB
“RICO CLAIMS.

We reach a similar conclusion
39.

with respect to plaintiffs’ RICO claim. The pattern of
racketeering activity necessary to establish a RICO
enterprise always falls outside the scope of the
compensation bargain. Thus plaintiffs RICO claims
are exempt from the exclusivity bar. A violation of 18
United States Code section 1962(c) requires “(.l)
conduct (2) of an enterprise (3) through a pattern (4)
ofracketeering activity.” (Sedima, SPRL v. Imrex Co.
Inc. Co.., Inc. (1985) 473 U,S, 479, 496 [105 S, Ct.
3275, 3285, 87 L. Ed. 2d 346% fn. Omitted.) To
establish a pattern ofracketeering activity, plaintiffs
must allege at least two predicate acts that “ are
interrelated by distinguishing characteristics” (H.J.
Inc. v. Northwestern Bell Telephone Co (1989) 492
U.S. 229, 240 [109 S. Ct 2893, 2901, 106 L. Ed 2d
195](H.J. Inc. and “amount to or pose a threat of
continued criminal activity”, (id. At p. 239 [109 S. Ct.
at 2900].) “[T]he threat of continuity is sufficiently
established where the predicates can be attributed to
a defendant operating as part of a long term
association that exists for criminal purposes” or
where it is shown that the predicates are a regular
way of conducting defendant’s ongoing legitimate
business....or conducting or participating in an
ongoing and legitimate RCIO enterprise. (Id. Atpp.
242-243 [109 S. Ct. atp. 2902], fn omitted.
Here, plaintiffs RICO claims allege that defendants
conducted or conspired to conduct various
enterprises through numerous acts ofmail fraud and
wire [24 Cal. 4th 827] fraud. Because these predicate
acts of mail and wire fraud allegedly form a pattern
of racketeering activity, they by definition, cannot be
closely connected to normal insurer activity....
40.

4~'

indeed such organized and systematic criminal
misconduct is always illegal, regardless of employer’s
state of mind, (see 18 U.S.C sec 1962). Accordingly
RICO claims are never subject to the exclusivity
provisions, and we refuse to bar them here. (7 Cal 4th
at .723,fn 7) Vancanti v. State Comp. Insurance
Fund [24 Cal. 4th 827]
State California criminal workers compensation law
violations and related requests for civil damages for
fraud are outside the scone and authority of the
WCAB. and administrative law courts, once
defendants violated federal laws using United States
mail services to commit continuing FCC and Federal
RICO violations.
REASON FOR GRANTING WRIT
Directly as a result of the Ninth Circuit Court of
Appeals failing to filed the Notice of Appeal served
on district court on 1/4/19 which automatically
“invoked the Ninth Circuit’s “en banc” panel required
to rule on “contradictory rulings within the same
Circuit Court [pursuant to Rutters Federal Appellate
Proceedure... with no Notice of Appeal on record all
rulings pertinent to Ninth Circuit Court of Appeal
Case No. 1955351 were rendered “null and void”.
Pursuant to the United State’s Constitution’s 5th
Amendment “right to due process”, and 14th
Amendment right “that requires equal application of
the laws” that includes FRCP 60(b)(4) this petitioner
is entitled to long overdue “immediate mandatory
relief from void rulings”... under the “judicial
standard articulated by United States Supreme
41.

Court Justice Ginsburg, in the rare instance when
there was no arguable basis for subject matter
jurisdiction to make rulings [in the absence of NOA]
and the rulings resulted in the petitioner not having
an opportunity to be heard.
There was no arguable basis for the district court to
block this federal plaintiff from filing Request to
Enter Default in Federal Court on 3/12/12 and 11/
21/12 after state clerk failed to enter default that
should have been entered on 7/29/11 which resulted
in “loss of subject matter jurisdiction for court [si to
do anything” but enter default [pursuant to Federal
Erie Doctrine and well established case law cited
above WA Rose v. Municipal Court.
It is notable that the Ninth Circuit Court of Appeal
indeed confirmed that with no NOA on file.... “We
lack jurisdiction to consider any of district court’s
prior rulings because Smith failed to file notice of
appeal. See Fed.R. App P 4(a)(1) (notice of appeal
must be filed within 30 days after entry of the
judgment”.....[Before Bea, Watford, and Friedland
submitted 6/14/16] which would appear to applicable
to this petition because the court of Appeals failed to
file the NOA filed by this federal plaintiff on 1/4/19 in
response to the 12/18/18 district court’s ruling.] It
appears that the Panel included newly appointed
Appellate Court judge Watford [an African
American] to this case to instill validity and so the
contradictory ruling would not at all appear to be
racially discriminatory.... But under California law it
was illegal for Bea and Friedland to include justice
Watford or anyone else on a panel created for the
42.

purpose of facilitating a positive outcome for an
employer and or attorneys who had engaged in
making false statements that constitute workers
compensation fraud [pursuant to WARNING FROM
THE STATE OF CALIFORNIA DEPARTMENT OF
INDUSTRIAL RELATIONS],
The federal court judge erred in not recognizing that
“original jurisdiction” remained in his court, and the
remand pursuant to 1447(c) was therefore a
“supplemental” jurisdictional decision, that did not at
all cause his original subject matter jurisdiction to
vanish as explained by Justice Ginsburg- see Exxon
v. Mobil cited herein.
It is notable that the district court judge in this case
appears to have also been a victim of workers
compensation fraud and racism when his order to
remand the case was hidden from the Superior Court
clerk by Los Angeles County Counsel, who later stole
the entire case file from the state court’s judge’s
court room and kept it for the period 8/10/11- 8/25/11
for purpose of inserting a demurrer [illegal filing
pursuant to 8 CCR sec 10490] dated 8/9/11 that was
not filed with the state court clerk as late as 9/2/11
evidence for which is the state court docket attached
as an exhibit to 60(b)(4) Petition served on district
court via U.S. mail but disappeared from the court’s
records according to the district court clerk...making
it impossible to have a hearing in federal or state
court for purpose of 60(b)(4) immediate relief from
void rulings or for entry of default that should have
been entered at state court on 7/29/11 and no later

43.

.1

than 3/12/12 at federal court against defendants who
to this day have filed no answer in state or federal
courts and cannot respond to this petition without
incriminating themselves.
As the co-founder and first president of the “Urban
Claims Association” I have firsthand knowledge of
the fact employer [defendant] MTA’s administrators
and their attorneys attended our workers
compensation fraud seminars, as it was a spearhead
organization that contributed to the passage of the
1993 State of California Workers Compensation
Fraud Reform Act ...but they seemingly did not
absorb very much from those seminars.
In any case , it is anticipated that the Justices of the
United States Supreme Court [pursuant to Feldman]
will Order this case remanded to district court judge
Percy Anderson with instructions to comply with
state law that requires entry of default and judgment
[pursuant to WA Rose v. Municipal Court] or grant
60(b)(4) Petition for federal plaintiffs mandatory
relief from “void rulings” and monies owed as set
forth in court documents filed most recently in
Proposed Order served on 6/3/20 “via certified mail”
but never filed by the district court clerk for reasons
not explained as district court clerk Rose Henderson
said she could offer no explanation and had no
knowledge of what happened to the FRCP 60(4)
Petition filed on 5/12/20 via U.S. mail and
subsequent related filings sent “certified mail” [as
including “Notice of Failure to Defend” and “Propose
Order” that includes “monies owed” can be once
again provided to the district court if needed for
44.

purpose of granting “monies owed”.
Petitioner is still waiting for response from this
Court as to whether still another filing fee is
required
after not filing the last two petitions for
“writ of certioraris” for reasons not explained [and
without refunding the filing fee]. Please advise and if
required still another fee will be paid . as similar
inquiry was made on May 18. 2020. regarding
payment to which there has been no response to
inquiry sent via U.S. “REGISTERED MATT” Number
RE 199 196 705 US.
Delaney Smith Pharm.D.,M.D.
Primary Treating Physician [pursuant to labor code
4061.5] (OPINION UNOPPOSED)
UNITED
STATES
CIVIL
SURGEON
FOR
DEPARTMENT OF DEFENSE AND IMMIGRATION
AND NATURALIZATION SERVICE
FORMER STATE OF CALIFORNIA APPOINTED Q.M.E.
FELLOW AMERICAN COLLEGE OF FORENSIC
MEDICINE

45.

